DOE/IG-0503




               AUDIT                  INCENTIVE FEES FOR
                                  BECHTEL JACOBS COMPANY LLC
              REPORT




                                             MAY 2001




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES
                                           DEPARTMENT OF ENERGY
                                             Washington, DC 20585

                                                     May 7, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Incentive Fees for Bechtel Jacobs
                         Company LLC"


BACKGROUND

In December 1997, the Oak Ridge Operations Office (Operations Office) awarded a $2.5 billion
performance-based management and integration contract to Bechtel Jacobs Company LLC (Bechtel
Jacobs) for environmental remediation activities in Oak Ridge, Tennessee; Paducah, Kentucky; and
Portsmouth, Ohio. The contractor was also responsible for uranium enrichment functions at Paducah
and Portsmouth. Under this arrangement, the contractor is to receive incentive fees for
accomplishing performance objectives negotiated before the start of the performance period, in this
case prior to the beginning of each fiscal year. The performance objectives describe what the
contractor is to accomplish and when the task is to be completed.

At the end of each fiscal year, based on an evaluation of actual performance in relation to prescribed
objectives, the contractor is compensated for its work by receiving an incentive fee from the
Department. For Fiscal Years 1999 and 2000, Bechtel Jacobs received incentive fees totaling
$34.7 million.

The objective of this audit was to determine whether the Operations Office required Bechtel Jacobs
to meet performance objectives that were established before the start of the performance period.

RESULTS OF AUDIT

Despite the terms of the contract, we found that the Operations Office had not established all of the
contractor performance objectives prior to the start of the performance period nor had it required the
contractor to meet all of the performance objectives that, in fact, had been established. Specifically,
the Operations Office:

       •   did not incentivize performance objectives in Fiscal Year 1998;

       •   did not finalize performance objectives before the start of Fiscal Years 1999 and 2000;
           and,

       •   modified performance objectives to reduce expectations during each year.
                                            -2-



We found that the Operations Office did not follow Departmental procedures for
developing incentive fees. Further, plans were not developed for making compensating
adjustments to fees to reflect performance objectives which were lowered during the
period. The contractor received incentive fees of $6.2 million for Fiscal Years 1999 and
2000 performance, even though the initial performance expectations directly tied to the
fees were not met.


MANAGEMENT REACTION

Management concurred with the finding and recommendations and stated that it will
revise its current Performance Evaluation Plan to include provisions to address our
recommendations. The revised Performance Evaluation Plan should be completed by
May 30, 2001. Although management agreed to implement our recommendations, it
contended that: (i) the contractor had earned its incentive fees; and (ii) changes to the
initial expectations were made through a formal change control process. Management
stated that the performance expectations were changed because of regulator delays, a lack
of funding for the incentivized work, Department directed scope changes, lack of
performance by other Department contractors, and changed conditions.

We recognize that there are circumstances, including some which are beyond the control
of the Department and/or the contractor, that justify changes to contractor performance
objectives. However, a pattern of frequent changes in successive periods, as we found at
Oak Ridge, suggests that the fundamental character of the contract instrument has, in
effect, been modified—instead of compensating the contractor for performance, the
Department is rewarding a level of effort. This, in our view, undermines the goal of
promoting excellence in contractor performance by incentivizing the fee process. In
addition to the work reported here, the Office of Inspector General is currently examining
various aspects of performance-based contracting practices at other Departmental sites.


Attachment

cc: Director of Procurement and Assistance Management
INCENTIVE FEES FOR BECHTEL JACOBS COMPANY LLC

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations...............................................….1


               Use of Incentive Fees

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................7


               Appendix

               Scope and Methodology.............................................................8

               Related Office of Inspector General and General Accounting
                  Office Reviews .....................................................................9
OVERVIEW


INTRODUCTION AND   In February 1994, the Department of Energy's (Department) Contract
OBJECTIVE          Reform Team issued its report entitled Making Contracting Work Better
                   and Cost Less. One of the report's recommendations was that the
                   Department should use an incentive fee approach in which the
                   contractor's "profit" is tied to the achievement of specific cost,
                   schedule, or technical objectives. This contracting approach is referred
                   to as performance-based contracting.

                   In December 1997, the Oak Ridge Operations Office (Operations
                   Office) awarded a $2.5 billion performance-based management and
                   integration contract to Bechtel Jacobs Company LLC (Bechtel Jacobs)
                   for environmental remediation activities at Department sites in Oak
                   Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio. A
                   primary objective was to accelerate cleanup activities and maximize
                   cost effectiveness. In addition to the environmental management work,
                   Bechtel Jacobs is also responsible for the enrichment facility programs
                   at Paducah and Portsmouth.

                   The contract states that the Operations Office will pay incentive fees to
                   Bechtel Jacobs for accomplishing performance objectives negotiated
                   before the start of each fiscal year (FY). Each incentive fee is based on
                   a performance objective that describes what the contractor is to
                   accomplish and when the task must be completed in order to qualify for
                   payment of the fee. At the end of each year, the Operations Office pays
                   Bechtel Jacobs the fee associated with performance objectives
                   accomplished during the year. The Operations Office awarded
                   $18.5 million and $16.2 million in incentive fees for work performed
                   during FYs 1999 and 2000, respectively.

                   The objective of this audit was to determine whether the Operations
                   Office required Bechtel Jacobs to meet performance objectives that
                   were established before the start of the fiscal year.

CONCLUSIONS AND    The Operations Office did not require Bechtel Jacobs to meet
OBSERVATIONS       performance objectives that were established before the start of the
                   fiscal year. Specifically, the Operations Office did not incentivize
                   performance objectives in FY 1998, did not finalize performance
                   objectives before the start of FYs 1999 and 2000, and modified
                   performance objectives to reduce expectations during each year. This
                   occurred because the Operations Office did not follow procedures for
                   developing incentive fees and did not develop plans for reducing fees
                   when performance expectations were lowered. As a result, the



Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         Operations Office paid Bechtel Jacobs $6.2 million in fees for initial
         objectives that were not achieved.

         The Office of Inspector General (OIG) and the General Accounting
         Office (GAO) have issued several reports related to performance-based
         contracts. The OIG determined that contractors were paid fees for work
         accomplished before incentives were established, for work that was
         easily accomplished, and for performance that was process-oriented
         rather than results-oriented. The GAO reported that the Department did
         not evaluate the impact of performance-based contracting on its
         laboratory contractors and, as a result, did not know if this new form of
         contracting was achieving the intended objectives of reducing costs and
         improving performance. (See Appendix 2 for a list of OIG and GAO
         reports.)

         In March 2001, the OIG issued DOE/IG-0498, Audit of Bechtel Jacobs
         Company LLC's Management and Integration Contract at Oak Ridge.
         This audit reported that Bechtel Jacobs did not use competitive, fixed-
         price subcontracts or reduce staffing, through workforce transitioning, to
         the extent proposed. The audit also disclosed that the Oak Ridge
         Operations Office had not incorporated these requirements in the Bechtel
         Jacobs contract, limiting the Department's ability to hold the contractor
         accountable for achieving these goals. Bechtel Jacobs, in an attempt to
         explain the disconnect between its original proposal and actual
         performance, stated that managing and integrating the work was more
         difficult than anticipated. The report concluded, however, that the
         Department could have saved an additional $44.1 million in FY 2000
         had Bechtel Jacobs met the initial terms of its proposal.

         In addition to prior audits, the OIG has two ongoing audits dealing with
         similar issues. The audit of "Performance-Based Contracting Practices
         in the Department" is being conducted to determine if the Department's
         use of performance-based contracts has resulted in improved contractor
         performance. The audit of "Available Fees for the Department's
         Management and Integrating Contractors" is being performed to
         determine whether management and integrating contractors' fees were
         commensurate with their risks and responsibilities.

         This audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                                         Signed
                                               Office of Inspector General

Page 2                                           Conclusions and Observations
USE OF INCENTIVE FEES


Operations Office Did   The Operations Office did not require Bechtel Jacobs to meet
Not Require Bechtel     performance objectives that were established before the start of the
Jacobs to Meet          fiscal year. Specifically, the Operations Office did not incentivize
Performance             performance objectives in FY 1998, did not finalize performance
Objectives              objectives before the start of FYs 1999 and 2000, and modified
                        performance objectives to reduce expectations during each year.

                               Performance Objectives Were not Incentivized in FY 1998

                        The Operations Office did not incentivize performance objectives in
                        FY 1998. The contract originally included 25 performance objectives
                        for which incentive fees were to be negotiated for April through
                        September 1998. However, on August 26, 1998, the Operations Office
                        removed all of the performance objectives and agreed to pay Bechtel
                        Jacobs $9 million in fixed fee for the performance period. The
                        performance objectives were removed because of difficulties related to
                        contractor transition and difficulties with meeting the Department's
                        requirement to establish costs for each performance objective.

                        The Operations Office agreed to pay the fixed fee even though Bechtel
                        Jacobs did not complete 6 of the 25 performance objectives originally
                        established for the period. Five of the incomplete objectives were
                        related to project management and execution, including two that were
                        reincentivized by the Operations Office in FY 2000. For example:

                           •   Bechtel Jacobs was to complete scrap removal and preparation
                               for disposal of Paducah Drum Mountain materials by September
                               30, 1998. Bechtel Jacobs finally completed this task in
                               September 2000 and was paid $852,000 in incentive fees after
                               completion.

                           •   Bechtel Jacobs was to remove the sludge from a tank at Oak
                               Ride National Laboratory by September 30, 1998. Bechtel
                               Jacobs completed this task in March 2000 and was paid
                               $925,000 in incentive fees after completion.

                           Performance Objectives Were Not Finalized Before FY 1999 and
                                                    FY 2000

                        The Operations Office did not finalize the majority of performance
                        objectives before the start of FYs 1999 and 2000. In fact, only 11 of the
                        160 FY 1999 and FY 2000 performance objectives were finalized
                        before the start of the fiscal year. The Operations Office did not
                        finalize 5 performance objectives, worth a total of about $335,000 in

Page 3                                                                       Details of Finding
         fee, until September 2000. Further, as of November 15, 2000, the
         Operations Office had finalized only four FY 2001 performance
         objectives.

           Performance Objectives Were Modified to Reduce Performance
                                  Expectations

         The Operations Office reduced performance expectations for 56 of
         the 160 FY 1999 and FY 2000 performance objectives during the
         performance period. The following are examples of modified
         performance objectives.

            •   The Operations Office reduced the performance expectation
                for construction of a remediation facility at Paducah,
                Kentucky by 50 percent. The Operations Office originally
                agreed to pay $150,000 for completing construction of the
                facility by September 20, 1999. After the project was
                delayed about 2 months due to Department licensing issues,
                the Operations Office reduced the performance expectation in
                May 1999 so that Bechtel Jacobs could receive the full fee for
                completing only half the construction by September 30, 1999.

            •   In August 1999, the Operations Office reduced the
                performance expectation for waste disposal and repackaging
                at Portsmouth, Ohio by about 34 percent. The Operations
                Office agreed to pay Bechtel Jacobs $220,000 in fee if it
                disposed of or repackaged 1,183 containers of waste at
                Portsmouth by September 30, 1999. The Operations Office
                later reduced funding for the project and reduced
                performance expectations to require disposal of 783
                containers, but it did not lower the fee associated with the
                task. As a result, the Operations Office paid Bechtel Jacobs
                the entire fee for disposing of only 66 percent of the
                containers in FY 1999. Furthermore, the Operations Office
                paid Bechtel Jacobs an additional $170,000 in incentive fees
                for disposing of the remaining 400 containers in FY 2000.

            •   The Operations Office significantly reduced the performance
                expectation for removing a uranium deposit from a facility at
                the Oak Ridge National Laboratory in FY 1999 and again in
                FY 2000. The Operations Office agreed to pay $546,000 in
                fee if Bechtel Jacobs completed the removal action by
                January 25, 1999. Afterward, Bechtel Jacobs discovered


Page 4                                                    Details of Finding
                                different conditions than expected. As a result, the
                                Operations Office reduced the expectation to require only the
                                design of removal equipment and the beginning of
                                preparations for removal by August 31, 1999. The
                                Operations Office paid Bechtel Jacobs the entire fee for
                                completing the design and beginning preparations for
                                removal on schedule. Then, in November 1999, the
                                Operations Office agreed to pay $350,000 in additional fee if
                                Bechtel Jacobs completed the entire removal action before
                                October 2000. However, on September 27, 2000, the
                                Operations Office lowered the performance expectation to
                                having the removal equipment ready for installation. As a
                                result, Bechtel Jacobs earned $896,000 in incentive fees
                                without removing any of the waste. The performance
                                expectations were reduced because the Department created
                                additional work requirements and the contractor's work plans
                                were inadequate. Further, the Operations Office plans to pay
                                Bechtel Jacobs about $71,000 in fees for this removal action
                                in FY 2001.

                            •   The Operations Office eliminated a performance expectation
                                for treating waste sediment, and added the associated fee to
                                other performance objectives in FY 2000. The Operations
                                Office agreed to pay Bechtel Jacobs $265,500 in fee if it
                                began treating waste sediment by September 30, 2000.
                                However, the treatment was deferred to FY 2001 after
                                significantly more sediment was discovered during the site
                                survey and the proposed treatment process did not appear to
                                be working. Instead of deferring the incentive fee for the
                                treatment of the sediment, the Operations Office increased
                                available fees for backfilling the sediment and building the
                                treatment plant by the fee originally assigned to the
                                treatment.

                         The Department's contract with Bechtel Jacobs states that incentive
Expectations Should Be
                         fees shall be paid to Bechtel Jacobs for the accomplishment of
Established Before
                         negotiated performance objectives, that the Operations Office and
Performance and Should
                         Bechtel Jacobs will negotiate performance objectives before the
Not Be Reduced
                         beginning of the fiscal year, and that the Operations Office will
                         prepare an annual performance evaluation plan. The Operations
                         Office's Performance Evaluation Plan for the Bechtel Jacobs
                         contract details the processes for developing, managing, and
                         evaluating incentive fees. The plan states that performance
                         objectives shall be established annually before the performance

Page 5                                                                    Details of Finding
                            period, and shall be results-oriented. Performance objectives consist
                            of three variables: cost, schedule, and scope of work. The initial
                            estimates for these variables become the project requirements.
                            Increasing the cost or time allowed to complete a project, or
                            decreasing the scope of work to be done is considered a reduction in
                            project requirements.

                            The Operations Office did not follow procedures for developing and
Operations Office Did Not
                            managing incentive fees and did not develop plans for reducing fees
Follow Procedures or
                            when performance expectations were lowered. The Operations
Develop Plans
                            Office did not incentivize performance objectives in FY 1998
                            because of difficulties related to Bechtel Jacobs' transition and
                            difficulties with establishing costs for each performance objective.
                            Operations Office managers stated that a major problem with
                            negotiating incentive fees in FYs 1999 and 2000 was the changing
                            scope and funding requirements. The performance expectations for
                            negotiated performance objectives were reduced without a reduction
                            in the incentive fee because the Operations Office did not develop
                            plans for reallocating incentive fees. In the absence of a plan, the
                            Operations Office assumed that the incentive fees were tied to the
                            work that could be accomplished during the fiscal year, instead of
                            the original performance objective. Although the Operations Office
                            did not follow its own procedures, we determined that the
                            performance objectives were established in accordance with the
                            Government Performance and Results Act of 1993.

Operations Office Paid      The Operations Office paid Bechtel Jacobs $6.2 million in fees for
Fees When Expectations      FYs 1999 and 2000 performance, even though the initial
Were Not Met                performance expectations directly tied to these fees were not met.
                            Bechtel Jacobs would not have received $6.2 million in fee had the
                            Department held it accountable for achieving the agreed-to
                            performance objectives, instead of reducing performance
                            expectations. We determined the amount of overpayments by adding
                            the fees associated with performance objectives for which the
                            Department's expectations were reduced during FYs 1999 and 2000.
                            We could not determine how much of the $9 million fixed fee paid
                            for FY 1998 was unnecessary because the Operations Office never
                            established the amount of fee available for specific performance
                            objectives.

                            About $15.3 million of the fees paid to Bechtel Jacobs in FYs 1998,
                            1999, and 2000 were for work with no associated performance
                            objectives or reduced expectations. This takes on added significance


Page 6                                                                        Details of Finding
                      when future fees are considered, since Bechtel Jacobs could earn up
                      to $149 million in additional incentive fees over the remaining base
                      and option years of the contract.

RECOMMENDATIONS       We recommend that the Manager, Oak Ridge Operations Office
                      implement the Performance Evaluation Plan, and:

                             1. Finalize performance objectives before the beginning of
                                each performance period;

                             2. Ensure that incentive fees are not increased after the start
                                of the period without requiring increased performance;

                             3. Ensure that incentive fees are decreased or not paid when
                                performance requirements are decreased or not met; and,

                             4. Develop plans for reallocating incentives fees when
                                performance requirements change.

MANAGEMENT REACTION   Management concurred with the finding and recommendations and
                      stated that they were revising the Performance Evaluation Plan to
                      include provisions that address the recommendations. The projected
                      completion date is May 30, 2001. Management stated that the
                      changes to performance expectations were made through a formal
                      change control process. Management also stated that the
                      performance expectations were changed because of regulator delays,
                      a lack of funding for the incentivized work, Department directed
                      scope changes, lack of performance by other Department contractors,
                      and changed conditions.

AUDITOR COMMENTS      Management's planned actions are considered to be responsive. We
                      acknowledge that there were numerous reasons for reducing
                      performance expectations. However, our report contains numerous
                      examples of the Department paying full incentive fees for Bechtel
                      Jacobs accomplishing less work than planned. The Operations
                      Office did not follow the Department's procedures for developing
                      incentive fees, and did not develop plans for renegotiating or
                      reassigning fees when performance expectations were lowered. The
                      Operations Office should have deferred payment of incentive fees
                      until the agreed-to tasks were completed or reassigned the fees to
                      other high-priority projects.




Page 7                                                            Details of Finding/
                                                     Recommendations and Comments
Appendix 1
SCOPE         The audit was performed from June 15, 2000, to January 19, 2001, at
              the Oak Ridge Reservation in Oak Ridge, Tennessee; the Paducah
              Gaseous Diffusion Plant, in Paducah, Kentucky, and the Portsmouth
              Gaseous Diffusion Plant, in Portsmouth, Ohio. The audit included a
              review of Bechtel Jacobs' performance-based incentives in FYs 1998
              through 2000.

METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed Departmental requirements for performance-based
                  contracting;

              •   Reviewed the Operations Office's contractual and internal
                  requirements for incentive fees;

              •   Reviewed FY 1999 and 2000 PBIs and related performance
                  agreements between the Operations Office and Bechtel Jacobs;

              •   Assessed Bechtel Jacobs' cost collection system related to incentive
                  fees;

              •   Reviewed the Operations Office's project cost variance techniques
                  for evaluating and applying performance measures;

              •   Held discussions with Operations Office and Bechtel Jacobs
                  personnel regarding the development and implementation of
                  incentive fees; and,

              •   Determined that performance measures were established in
                  accordance with the Government Performance and Results Act of
                  1993.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of the Department’s contract with Bechtel
              Jacobs and guidance for the development of incentive fees. Because
              our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of our
              audit. We did not rely on computer-processed data to achieve our audit
              objective.

              We held an exit conference with the Acting Chief Financial Officer,
              Oak Ridge Operations Office on April 23, 2001.
Page 8                                                     Scope and Methodology
Appendix 2

      Related Office of Inspector General and General Accounting Office Reviews



This review concerned the Department's contract reform in the area of performance incentives. Prior Office
of Inspector General and General Accounting Office reviews related to this area include those listed below.

   Performance Incentives at the Idaho National Engineering and Environmental Laboratory,
   (WR-B-00-05, April 2000). Performance incentives at the INEEL had not been fully successful in
   improving performance and reducing costs and these problems resulted in the auditors questioning
   about $11.3 million in incentive fees paid to Lockheed Martin Idaho Technologies Company.

   National Laboratories: DOE Needs to Assess the Impact of Using Performance-Based Contracts,
   (GAO/RCED-99-141, May 1999). The Department had not evaluated the impact of performance-based
   contracting on its laboratory contractors and, as a result, did not know if this new form of contracting
   was achieving the intended objectives of reducing costs and improving performance.

   The Fiscal Year 1996 Performance Based Incentive Program at the Savannah River Operations Office,
   (INS-O-98-03, May 1998). The Savannah River Operations Office had incentives that were not clearly
   stated and paid excessive fees.

   Audit of the Contractor Incentive Program at the Nevada Operations Office, (DOE/IG-0412, October
   1997). The Nevada Operations Office performance incentives were vague, could not be objectively
   validated, and were implemented after the performance period had been completed.

   Audit of the Contractor Incentive Programs at the Rocky Flats Environmental Technology Site,
   (DOE/IG-0411, August 1997). The Department's performance incentives at the Rocky Flats
   Environmental Technology Site did not always include clearly defined criteria, were not structured to
   encourage and reward superior performance, and were often process-oriented rather than results-
   oriented.

   Inspection of the Performance Based Incentive Program at the Richland Operations Office,
   (DOE/IG-0401, March 1997). The Richland Operations Office paid excessive incentive fees; paid fees
   for work that was accomplished prior to the establishment of the incentive program; paid fees for work
   that was not completed, paid fee for work that was easily achieved by the contractor; and paid fee in an
   instance where quality and safety were compromised by the contractor in order to achieve an incentive
   fee.




Page 9                                                                                    Related Reports
                                                                               IG Report No. :DOE/IG-0503

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
